No. 21-53

IN THE SUPREME COURT OF THE UNITED STATES

 

JAMES DALE HOLCOMBE, Petitioner
v.

STATE OF FLORIDA, Respondent

 

CERTIFICATE OF COMPLIANCE

I, Carolyn M. Snurkowski, a member of the Bar of this Court, hereby certifies that,
pursuant to S.Ct.R. 33.1, the Petition for Writ of Certiorari filed with this Certificate
complies with the Rule’s word-count limitations and contains 8,153 words, as reported by
Microsoft Word, excluding the questions presented, the list of parties, the table of contents,
the table of cited authorities, the listing of counsel at the end of the document, and the
verbatim quotations of constitutional provisions, treaties, statutes, ordinances, and
regulations involved.

ASHLEY MOODY
ATTORNEY, GENERAL

  

CAROLYN M. SNURKOWSKI
Associate Deputy Attorney General
Florida Bar No. 158541

OFFICE OF THE ATTORNEY GENERAL
PL-01 The Capitol

Tallahassee, Florida 32399-1050

(850) 414-3300 Ext. 4566
